IN THE SUPREME COURT OF THE UNITED STATES

FRANCISCO VILLA,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Francisco Villa, asks for leave to file a Petition for Writ of Certiorari to the U.S. Court
of Appeals for the Ninth Circuit without pre-payment of fees or costs and to proceed
in forma pauperis. The Petitioner was represented by counsel appointed pursuant to
18 U.S.C. ยง 3006A in the district court and on appeal to the Court of Appeals for the
Ninth Circuit.

Respectfully submitted,

January 8, 2021

 

Cardiff, CA 926
Telephone: (858) 215-3520
Counsel for Mr. Villa
